<html>
<title> - Religious Freedom Violations in the OSCE Region</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






115th Congress                                Printed for the use of the 
1st Session             Commission on Security and Cooperation in Europe
________________________________________________________________________




 
                    Religious Freedom Violations
                        in the OSCE Region
             






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                       NOVEMBER 15, 2017
                       
                       
                  Briefing of the
          Commission on Security and Cooperation in Europe 
________________________________________________________________________
                        
                        Washington: 2018
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        








             Commission on Security and Cooperation in Europe
                       234 Ford House Office Building
                             Washington, DC 20515
                                   202-225-1901
                              <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="45263626200528242c296b2d2a3036206b222a33">[email&#160;protected]</a>
                              http://www.csce.gov
                                @HelsinkiComm






                      Legislative Branch Commissioners

              HOUSE                                   SENATE
                                                                                                                                                                                                                                                                                                          
CHRISTOPHER H. SMITH, New Jersey            ROGER WICKER, Mississippi,
  Co-Chairman                                  Chairman
ALCEE L. HASTINGS, Florida                  BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                 JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                   CORY GARDNER, Colorado
STEVE COHEN, Tennessee                      MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina              JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                    THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                   TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                       SHELDON WHITEHOUSE, Rhode Island

                    Executive Branch Commissioners


                        DEPARTMENT OF STATE
                        DEPARTMENT OF DEFNESE
                        DEPARTMENT OF COMERCE

                              [II]









 ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.



                                    [III]











                     Religious Freedom Violations
                         in the OSCE Region


                           November 15, 2017



                                                                                           Page
                              PARTICIPANTS

Nathaniel Hurd, Policy Advisor, Commission for Security and Cooperation in Europe ..........   1

Ambassador Michael Kozak, Bureau of Democracy, Human Rights, and Labor, U.S. Depart- 
  ment of State ............................................................................   3
Dr. Kathleen Collins, Associate Professor of Political Science, University of Minnesota ....   9
Philip Brumley, General Counsel, Jehovah�s Witnesses .......................................  10
Dr. Daniel Mark, Chairman, U.S. Commission on International Religious Freedom ..............  10
Stacy L. Hope, Director of Communications and CSCE Liaison to the Chairman�s Commu-
  nications Staff, Commission for Security and Cooperation in Europe .......................  15

                               APPENDIX


Prepared Statement of Philip Brumley ........................................................ 33






                                            [IV]








                            Religious Freedom Violations 
                               in the OSCE Region
                                   ----------                              

                           November 15, 2017



             Commission on Security and Cooperation in Europe
                               Washington, DC



    The briefing was held at 2 p.m. in Room 385, Russell Senate Office 
Building, Washington, DC, Nathaniel Hurd, Policy Advisor, Commission 
for Security and Cooperation in Europe, presiding.
    Panelists present: Nathaniel Hurd, Policy Advisor, Commission for 
Security and Cooperation in Europe; Ambassador Michael Kozak, Bureau of 
Democracy, Human Rights, and Labor, U.S. Department of State; Dr. 
Kathleen Collins, Associate Professor of Political Science, University 
of Minnesota; Dr. Daniel Mark, Chairman, U.S. Commission on 
International Religious Freedom; Philip Brumley, General Counsel, 
Jehovah's Witnesses; and Stacy L. Hope, Director of Communications and 
CSCE Liaison to the Chairman's Communications Staff, Commission for 
Security and Cooperation in Europe.

    Mr. Hurd. Good afternoon, and welcome. On behalf of the chairman of 
the Helsinki Commission, Senator Wicker, and the co-chairman, 
Congressman Smith, I want to extend a very warm welcome to those of you 
that have braved the cold to make it here in person, and also to those 
of you watching online.
    My name is Nathaniel Hurd. I'm a policy adviser at the Helsinki 
Commission. I want to say just a quick word about format. Our first 
panelist, Ambassador Michael Kozak, has a hard stop at 3:00, so after 
introducing our panelists, I'm going to turn it over to him for opening 
remarks. I will then ask him a series of questions. He'll answer them. 
I'll then open it up to questions for him from our fellow panelists, as 
well as to those of you in the audience and those of you watching 
online.
    It is a delight to begin with Ambassador Kozak. He is a longtime 
friend and colleague of the Helsinki Commission. He actually led the 
delegation to the Human Dimension Implementation Meetings (HDIM) this 
past fall, and by all accounts did a fantastic job. So it's good to 
have you here.
    Ambassador Kozak is a charter member of the Career Senior Executive 
Service in the U.S. Government. He has served in a number of senior 
positions in the U.S. executive branch, including as senior director on 
the National Security Staff from 2005 to 2009, in Principal Deputy 
Assistant Secretary of State level positions in three different 
bureaus, Acting Assistant Secretary of State for extended periods of 
time, Ambassador in Belarus, and Chief of Mission in Havana, Cuba. 
Ambassador Kozak was a U.S. negotiator with Cuba to secure the return 
of criminals sent to the United States during the Mariel boat crisis. 
He also helped implement the Camp David Accords and negotiate the 
withdrawal of the PLO from Lebanon. Ambassador Kozak has been awarded 
the State Department Superior Honor Award, Younger Federal Lawyer 
Award, Presidential Ranks of Distinguished and Meritorious Executive, 
and the Order of Balboa presented by the president of Panama. He 
received his A.B. in political science and law degree from the 
University of California at Berkeley. Welcome.
    Dr. Daniel Mark is the Chairman of the U.S. Commission on 
International Religious Freedom. He is an Assistant Professor of 
political science at Villanova University. There he teaches political 
theory and philosophy of law, politics and religion. At Villanova, he 
is a faculty associate of the Matthew J. Ryan Center for the Study of 
Free Institutions and the Public Good, and he holds the rank of 
battalion professor in Villanova's Navy Reserve Officers Training Corps 
unit. For the 2017 through 2018 academic year, Dr. Mark is on leave 
from Villanova as a visiting fellow in the Tocqueville Program for 
Inquiry Into Religion and Public Life at the University of Notre Dame. 
Dr. Mark is a fellow of the Witherspoon Institute in Princeton, New 
Jersey, and works with the Tikvah Fund in New York. He is also a member 
of the advisory council of CanaVox. He has served as an assistant 
editor of the journal Interpretation, and is a contributor to the Arc 
of the Universe blog. In addition to his academic writing, Dr. Mark has 
published on topics related to international religious freedom in U.S. 
News and World Report and other outlets and publications. He holds a 
B.A., M.A., and Ph.D. from the Department of Politics at Princeton 
University. Before graduate school, he was a high school history 
teacher for four years in New York City. Welcome.
    Next, we'll hear from Dr. Kathleen Collins. Dr. Collins is an 
Associate Professor in the Department of Political Science at the 
University of Minnesota. She is the researcher for Central Asia for the 
Under Caesar's Sword Project, pioneered by the University of Notre Dame 
and the Religious Freedom Research Project at the Berkeley Center at 
Georgetown University, which focuses on the repression and persecution 
of Christians globally. The project's book, edited by Daniel Philpott 
and Tim Shah, is forthcoming with Cambridge University Press. Dr. 
Collins is the author of ``Clan Politics and Regime Transition in 
Central Asia,'' which won the Central Asia Studies Society Book Award 
for Social Sciences. She has published articles in various journals and 
edited volumes, including Comparative Politics, World Politics, the 
Journal of Democracy, Europe-Eurasia Studies, Political Research 
Quarterly, the Brown Journal of International Affairs, and Asia Policy. 
She is currently writing two new books tentatively titled ``The Rise of 
Islamist Movements: Islam and State in Central Asia and the Caucasus'' 
and ``Muslim Politics: Islam, Politics, and Public Opinion in Post-
Soviet Kyrgyzstan and Azerbaijan.'' Dr. Collins has received grants 
from the Carnegie Corporation of New York, the MacArthur Foundation, 
the Kellogg Institute, the United States Institute of Peace, IREX, and 
the National Council for Eurasian and East European Research, among 
others.
    Finally, we'll hear from Philip Brumley. Mr. Brumley is the General 
Counsel for Watchtower Bible and Tract Society of Pennsylvania. He 
received his law degree in 1988 from Brooklyn Law School, in New York. 
He has represented Jehovah's Witnesses in the U.S. Supreme Court and 
the European Court of Human Rights. Additionally, he supervised the 
filing of complaints to the U.N. Human Rights Committee that resulted 
in 15 favorable decisions. In addition to his work on behalf of 
religious freedom, he is an instructor at the Watchtower Bible School 
of Gilead and the School for Branch Committee Members, in Patterson, 
New York.
    Ambassador Kozak.
    Amb. Kozak. Thank you, Nathaniel, and thanks to the commission for 
holding this briefing on religious freedom in the OSCE region.
    Religious freedom is a cherished American value, universal human 
right, and a Trump administration foreign policy priority. I'd like to 
open by saying that the Department is hopeful that the Senate will soon 
confirm Governor Sam Brownback of Kansas to be Ambassador-at-Large for 
International Religious Freedom. Governor Brownback, former Commission 
on Security and Cooperation in Europe chairman and commissioner, is the 
highest-ranking government official ever nominated for this important 
post. He brings great commitment and experience, including having been 
a key sponsor of the International Religious Freedom Act. We could not 
ask for a more distinguished nominee.
    Now turning to the conditions for religious freedom among the OSCE 
participating States, as head of the U.S. delegation to HDIM in Warsaw 
in September, it was my privilege to present the statement on freedom 
of thought, conscience, religion, or belief. I made the point that 
freedom of religion is an animating foundational principle of the 
United States and that the right to believe or not to believe is 
embedded in our Constitution and integrated throughout our national and 
state laws. At HDIM we were also very clear about our concerns in the 
region. In the OSCE region, the State Department has designated 
Tajikistan, Turkmenistan, and Uzbekistan as Countries of Particular 
Concern (CPC) under the International Religious Freedom Act for 
engaging in or tolerating systematic, ongoing and egregious violations 
of religious freedom. The other countries so designated are Eritrea, 
Sudan, Iran, Saudi Arabia, Burma, China, and Vietnam at one time. We 
have active dialogues with these countries to encourage them to take 
concrete steps to ensure that freedom of thought, conscience, religion 
and belief is fully enjoyed by all. We anticipate that the latest 
rounds of Country of Particular Concern designations will be finalized 
in the near future.
    In Turkmenistan, members of religious minorities reportedly have 
been beaten and imprisoned for beliefs the government considers 
unacceptable, particularly unregistered Protestants, Jehovah's 
Witnesses, and Muslims the government views as extremists or 
Wahhabists. We are aware of one Jehovah's Witness prisoner of 
conscience, Bahram Hemdemov, and there is an unknown number of Muslims 
imprisoned for their religious beliefs. Religious groups there 
encounter significant obstacles to legal registration.
    In Uzbekistan, we've welcomed the government's public expression of 
interest to work with us to be removed from the CPC list. We view it as 
positive that the U.N. Special Rapporteur on Freedom of Religion or 
Belief recently visited Tashkent and enjoyed high-level meetings. 
Concerns about religious freedom conditions in Uzbekistan include how 
people may be detained, questioned and fined for gathering to discuss 
their religious belief outside of government-authorized locations.
    In Tajikistan, over a hundred people have been detained for 
membership in banned religious groups, and a number of individuals were 
subjected to long-term imprisonment for so-called extremist views. The 
government restricts children under 18 from attending public religious 
service. Tajikistan is the only country to enforce such a restriction 
nationwide.
    In Kazakhstan, a country that previously had a well-deserved 
reputation for religious tolerance, we've seen continued negative 
steps, with proposed legislation that would severely restrict religious 
education, discussions, and literature. We urge the government of 
Kazakhstan to bring existing and proposed laws into conformity with 
Kazakhstan's international commitments on human rights.
    We're closely monitoring proposed amendments on the religion law in 
the Kyrgyz Republic. As currently drafted, the amendments would give 
the government more control over religious groups and place further 
restrictions on proselyting and registration.
    We have pointed out in HDIM and elsewhere that Russia is misusing 
anti-terrorism and anti-extremism laws to suppress religious freedom in 
unprecedented ways, raiding houses of worship and homes, and harassing, 
fining, jailing and deporting members of religious minorities. NGOs 
have identified at least 111 persons as of 2016 imprisoned for their 
exercise of religious freedom, many of them on, again, so-called 
extremism charges. The Russian Supreme Court banned the Jehovah's 
Witnesses as an ``extremist organization'' on April 20, 2017, and 
upheld this decision again in July. A Danish member of Jehovah's 
Witnesses arrested in Russia and charged with so-called extremism 
remains in detention for holding a religious meeting.
    The government of Azerbaijan continues to detain religious 
activists who local human rights groups deem political prisoners and 
the government considers as nontraditional groups, such as Jehovah's 
Witnesses and Muslim minority groups, and they face difficulties in 
legally registering. Adherents cannot freely practice their religions 
without risking police raids, fines, detention, arrest, or prosecution.
    In Turkey, authorities continue to limit the human rights of some 
religious groups and some communities continue to experience protracted 
property disputes. Non-Sunni Muslims, such as Alevi Muslims, do not 
receive the same government protections as those enjoyed by recognized 
non-Muslim minorities and have faced discrimination and violence. Some 
foreign citizens, including several individuals with ties to Christian 
groups, faced detention, problems with residency permissions and visas, 
and so on under the state of emergency following the 2016 coup. The 
United States continues to advocate for the immediate release of Pastor 
Andrew Brunson, a U.S. citizen who's been wrongfully imprisoned in 
Turkey since October 2016.
    Today religiously motivated manifestations of hate are persisting, 
evolving, and erupting in unprecedented ways around the OSCE region. 
Anti-Semitic violence continues to rise, giving new urgency to the need 
for participating States to respond with immediate, definitive action. 
Both age-old and contemporary forms of anti-Semitism are afforded 
unprecedented reach by the use of mass media, including online 
technologies. At HDIM, we urged all governments to denounce and combat 
anti-Semitism and work with Jewish communities to better protect them. 
The OSCE continues to benefit from the expertise of Rabbi Andrew Baker, 
the Personal Representative of the OSCE Chair-in-Office on Combating 
Anti-Semitism and also Director for Jewish Affairs at the American 
Jewish Committee.
    We're also deeply concerned about intolerance and violence towards 
Muslims. There's a growing trend of the governments across the OSCE 
region and elsewhere imposing restrictions on the ability of Muslims to 
freely practice their faiths.
    Good data is essential to developing good policies. The United 
States supports the work of ODIHR's Hate Crime Unit and its efforts to 
collect comprehensive data. We also encourage participating States to 
work with civil society to develop strategies for addressing the 
problem of under-reporting. In addition to HDIM, we work closely with 
the U.S. Permanent Mission to the OSCE to combat religion intolerance 
and coordinate policies and statements. At OSCE, for example, we've 
raised the targeting of members of religious minorities such as 
Jehovah's Witnesses in Russia and called upon Central Asian governments 
to bring their laws into conformity with their obligations.
    In closing, I'd like to emphasize that we appreciate the 
commission's focus on international religious freedom issues. It 
greatly strengthens our hand in diplomatic efforts on behalf of 
religious freedom with foreign governments that this fundamental human 
right enjoys such deep, broad, and steadfast and bipartisan 
congressional support. We want to continue to work closely with the 
commission to help protect and promote international religious freedom 
in the OSCE Mission.
    Thank you.
    Mr. Hurd. Thank you, Ambassador Kozak.
    I will ask a basket of questions. After you've answered them, I'll 
open it up to the panelists and then to the broader audience.
    Amb. Kozak. Great.
    Mr. Hurd. As the U.S. Government representative, I'm sure you can 
expect that you'll start off in the hot seat, but things will hopefully 
get a bit cooler as we proceed.
    I'll ask you three baskets of questions, several of which focus on 
Countries of Particular Concern.
    Amb. Kozak. OK.
    Mr. Hurd. The Frank Wolf International Religious (IRF) Freedom Act 
requires the State Department to issue the Annual International 
Religious Freedom Report on May 1st. The Act also requires the State 
Department to issue its designation of Countries of Particular Concern 
no later than 90 days after issuing the IRF report. This year, the 
Department released the IRF report on August 15th, more than three and 
half months late. The deadline just passed for CPC designations, and no 
designations have yet been issued, although you alluded that that will 
be happening soon. One question would be, why have there been delays 
regarding the report and the CPC designations? Do you expect to issue 
these by the end of the year?
    Amb. Kozak. On the delays on the reports, this is a bit of ``damned 
if you do and damned if you don't.'' We were criticized this year for 
issuing the Human Rights Report exactly on time but not having the 
secretary participate in it. With the IRF report, we waited until the 
secretary could participate because he really wanted to participate in 
the rollout. But trying to get schedules aligned and so on with senior-
level officials results in a delay.
    So it's always a tradeoff between which we way go. We can send the 
report up, but then you lose the impact of having the secretary roll it 
out, and I think as any of you who saw the secretary's rollout of the 
IRF report this year, it was pretty powerful, and I guess I would say 
worth waiting for. So that is what happened with respect to the report 
itself.
    With respect to the CPC designations, I have to take responsibility 
on that myself, because it's the actions of my bureau. We have not 
gotten the paperwork to the secretary at this point for decision. 
People like to think this is due to some titanic bureaucratic battle 
going on, but it tends to be more mundane stuff. As we were talking a 
little before the hearing, when the new Frank Wolf Act was rolled out, 
it included some additional categories--for example, a special watch 
list, entities of particular concern. As we were moving towards getting 
all of our packages together, it suddenly dawned that there were, for 
example, a definitional question of what does severe violation of 
religious freedom mean. In the IRF Act, particularly severe violations 
are defined. It's not that.
    So we had to work with lawyers to come up with what would be a 
reasonable and supportable interpretation that would be consistent with 
congressional intent. It also turns out that the entities of particular 
concern, the way the statute was drafted, didn't modify the IRF Act. So 
the existing delegations of authority don't apply to it. So now we have 
to work with the White House either to get that authority delegated or 
for the president to exercise it personally. Those are the kinds of 
things--it's not that the secretary is incapable of doing this. We were 
incapable of getting the paper to him on time. I think we're pretty 
confident we're going to have it up in the near future and give him the 
opportunity to consider and make the decisions. But the apologies for 
being late are on us.
    Mr. Hurd. The International Religious Freedom Act of 1998, which 
you alluded to, requires the president to take actions from the list 
provided in the legislation, including even sanctions, for any country 
where there are severe restrictions on religious freedom. However, it 
only requires sanctions be taken or certain commensurate action if the 
country is designated as a CPC. The Frank Wolf Religious Freedom Act 
requires the U.S. Government to provide fuller and more frequent 
responses when waivers have been exercised. The U.S. Government also 
has a range of authorities, including the Global Magnitsky Human Rights 
Accountability Act, for imposing sanctions on individuals for religious 
freedom violations.
    Generally speaking, has the State Department found any particular 
sanction or action more or less effective in addressing global 
religious freedom restrictions? That's one question. A second question 
would be, is there a good model for judging the success of religious 
freedom diplomacy? Finally, does the administration intend to use the 
full range or authorities available to it to sanction foreign persons--
individuals--suspected of particularly severe religious freedom 
violations regardless of whether they are in the list required by the 
Frank Wolf Act and regardless of the time of year, recognizing this can 
be done at any point during the year?
    Amb. Kozak. Let me try--and I may have forgotten part of the 
question, so please remind me.
    Mr. Hurd. Sure.
    Amb. Kozak. I'll try to start with the last first. The Global 
Magnitsky authority is something that's really important. That's 
relatively new. We're in the process now of gathering up names and 
identities of persons who would qualify under the terms of that act, 
including some who have engaged in religious freedom violations. Some 
are for other forms of human rights violations. I think, in my own 
experience anyway, sanctions that target individuals--senior-level 
individuals, their families, their cronies who provide support--tend to 
give us the most leverage effect that you can get. Broader, national-
level trade sanctions and so on become part of the scenery. But when 
you bring it down to somebody has their assets blocked in the United 
States or their family can't go to college in the United States or 
can't come shopping here, or whatever it might be, it becomes a source 
of concern for them.
    To me, the metric is, are we able to use these to actually leverage 
improvements in human rights conditions, or in this case, specifically 
in religious freedom conditions in other countries, and trying to make 
that linkage and get people off the list is sometimes difficult. This 
is something that our Office of Religious Freedom really has worked 
hard to do. It's not just to put people on the list for a punitive 
sake, but instead going to them and saying if you want to get off the 
list, which most of them do--just as a reputational thing, it's not 
good to be on a list of CPCs; that probably has as much leverage as any 
specific pain we inflict on them--but it's saying to them, OK, here is 
a menu of the kinds of things you would need to do in order for us to 
consider taking you off the list. So it's trying to keep that linkage 
between the punishment and the crime and what kind of improvements 
would get you from where you are to not being on the list.
    The waiver issue is another matter. I think as you were mentioning, 
in the Act there are two types of waivers. One is when we feel that 
waiving the sanction would actually be in the interest of the purposes 
of the Act. So I say the time you would use that is a country has done 
a bunch of really bad things but they have a change of regime and 
they're negotiating a bunch of reforms. You don't want to hit them with 
a sanction right now. You want to encourage them to do the reforms that 
we're looking for. That we have not used--at least not very much. I 
don't think ever, actually.
    The other one is the national interest waiver, and it's the much 
more mundane thing that you have a country that's engaged in egregious 
religious freedom violations, but we're also depending on them to allow 
us to transit military supplies through their territory to a theater of 
war, or something. In that case, the waiver is simply a tradeoff, and 
usually explained as such. I think that's perhaps what has happened 
with some of the acts. It just says the secretary determined it was in 
the national interest not to apply the waiver. Obviously, we'd be happy 
to come up and give a more in-depth briefing. That determination he 
makes is like a one-sentence type thing. But the reason behind it is 
something that people in our regional bureaus as well as us would be 
happy to go into.
    I think it's fairly obvious where you see the ones that we've made 
waivers, all three of the Central Asians, it was Northern Defense 
Network of where we were supplying our troops in Afghanistan through 
their territory, and that was the tradeoff. It's not a way of saying or 
lessening the condemnation of their religious freedom violations. It's 
saying they did it, they deserve to be sanctioned, but we're going to 
forgo that because of these other considerations. Those do not rule out 
going after somebody individually or using Magnitsky or one of our visa 
authorities.
    Mr. Hurd. Of course one of the advantages of the Global Magnitsky 
Act is that it is a law that other countries can model in their own 
right. To the extent that they see the United States implementing it 
faithfully, hopefully it will inspire them to do likewise, which means 
that these individuals not only are denied access to the United States 
and to our financial systems and markets, but also in other countries 
as well.
    Amb. Kozak. Yes. Canada has been adopting a similar law. And 
there's actually another one. You asked about effectiveness of 
sanctions. The more allies you can get, the better on these, because 
denial of access to the U.S. financial system is a big deal. But if 
you're also nailed from travel to the EU countries and into Canada, you 
just start restricting the scope of activity for one of these 
evildoers. It amplifies what we're trying to do tremendously and so is 
something we always encourage.
    Mr. Hurd. One more set of questions before opening it up to our 
panelists to ask you questions, and then to the audience.
    Governments, some of which you mentioned already--Tajikistan, 
Turkmenistan, Uzbekistan, Azerbaijan, Kazakhstan, Kyrgyzstan, Russia, 
and Turkey--regularly invoke security to justify violating the 
religious freedom of groups and individuals. In your view--and in the 
broader view of the U.S. Government--does protecting and promoting 
religious freedom generally enhance security, including to combat 
terrorism and violent extremism? If religious freedom violations 
perpetrated by these governments have undermined security in their 
countries, how so? Are religious freedom violations in these countries 
isolated, or are they part of a broader pattern of infringement, 
restriction, violation of fundamental freedoms like freedom of assembly 
and freedom of expression--part of sort of a pattern of attempting to 
control the citizenry?
    Amb. Kozak. Last first. I can't think of a single case where the 
violation has just been against religious freedom and they allow 
freedom of assembly and speech and political openness and all of that. 
It all goes together. It's all governments that are trying to suppress 
legitimate political opposition to them, and they're afraid of anything 
that's not under their control, basically.
    Our view is very much that respect for human rights, including 
religious freedom, is fundamental to securing peace and prosperity in a 
country and not creating a breeding ground for terrorists and so on. My 
own experience: I got into human rights work not because I was a human 
rights activist but because in the 1980s I was trying to figure out how 
to counter Soviet-backed insurgencies in Central America. A lot of us 
were saying just backing these military governments that are out 
slaughtering their citizens right and left isn't getting the job done. 
The people hate the insurgents, but they hate the government as much or 
more than they hate the insurgents, and that's not a way to win a war. 
So it's not only good human rights doctrine. It's good counterterrorist 
doctrine to be respectful of people's human rights.
    This is something that's not just the IRF office or the Bureau of 
Democracy, Human Rights and Labor (DRL) out there promoting it. Our 
colleagues in the Counterterrorism Bureau and in the Political-Military 
Bureau and so on are making the same message, our colleagues in the 
U.S. military, because that's the way you win wars.
    What you've got in this case is a bunch of governments that are 
charitably, you would say, misguided into thinking that by suppressing 
what they view as extremist thought--which is anything that deviates 
from the government-approved line--that that somehow is countering 
terrorism. I think in most cases the less charitable view is that 
they're just very afraid of any grouping of people or any independent 
thought that could possibly turn against them, so they justify it in 
terms of fighting terrorism.
    It's not that they don't have terrorist threats. Most of these 
governments do. But they're treating entire swaths of their population 
as if they were terrorists when there are people who want to do nothing 
more than just practice their faith and associate with their 
colleagues. So that's our doctrine that we're pushing very, very hard, 
sometimes with some success, sometimes with less than we'd like.
    Mr. Hurd. It seems particularly counterproductive in this instance 
where you have individuals who are imprisoned, tortured or otherwise 
abused. We hear, whether it's in the OSCE region or in other places, 
they become especially susceptible to recruiting from terrorist groups, 
violent extremists.
    Amb. Kozak. Absolutely.
    Mr. Hurd. Especially when they entered prison they had no thought 
of these kind of activities.
    Amb. Kozak. The prisons are a great recruiting ground. It's also a 
broader recruiting thing that when people see their co-religionists 
imprisoned, supposedly for terrorist acts just because they didn't go 
along with the government-approved version of religion, or where, 
likewise, if they won't let peaceful political opponents express 
themselves freely and all of that, people start to say the only way I 
have of trying to defend my community or advance my views is to join 
the terrorists, because they're at least doing something about the 
problem I perceive. If the government shuts off all other ways for 
people to try to modify their situation, it ends up making terrorists a 
lot more popular than they would otherwise be.
    This is something that is not philosophical. Empirically you can 
show that over and over and over again. And yet, we still have a lot of 
governments that adhere to the opposite view. It's something that not 
just the human rights folks are saying. It's our military and 
counterterrorism people because it's absolutely in our interest that 
governments learn to open up a little bit.
    Mr. Hurd. Before opening up the questions to the audience, do any 
of the panelists have questions for Ambassador Kozak?
    Dr. Collins. Ambassador Kozak, thank you very much for your 
remarks.
    I wonder if you could maybe speak a little bit more specifically 
about the situation in Uzbekistan and what constitutes the dialogue 
you're having with the new Uzbek Government about what they would need 
to do to get off of the CPC list.
    Thank you.
    Amb. Kozak. No, thank you, Doctor.
    I had the interesting experience not this last year at HDIM but the 
year before. President Karimov died like the day before HDIM started or 
something--I don't know, it was a very short time. The senior 
representative that they had sent there wanted to talk and was bringing 
messages from the new government about how they wanted to change their 
ways and get out of from not just CPC designation but the whole aspect 
that they have of being bad on human rights. We gave them some initial 
thoughts--be more open with NGOs--and they, to their credit invited 
some of the American NGOs there, giving them high-level access so that 
they could hear from them on release of prisoners. They've released a 
number of long-term political prisoners. Our IRF colleagues have been 
trying to give them things that they could do on that front.
    Our concerns are pretty well known. We try not to say, do these 
five things and we'll let you off the hook, because we can't judge how 
difficult some of those things are. It's like, here are 15 things, and 
if you did enough of them it would really start to change the 
perception of what you're doing.
    I think we're kind of at an early stage of this. They had this 
Special Rapporteur on Freedom of Religion or Belief come and visit 
them. We're basically promoting those things, because other people can 
give them good ideas, too. It's not just exclusively the U.S. 
Government.
    We're hoping as soon as we get Governor Brownback on board, Senate 
willing, that we'll make a real effort at that one, because there seems 
to be at least some receptivity to not just maintaining the status quo. 
Our thought is, the more engagement, the better. We don't have a bright 
line test for what it would be. There are so many problems there that 
if they did five or six significant steps, that would be helpful to 
people in the society, I think.
    Thank you.
    Mr. Brumley. Thank you, Mr. Ambassador.
    I just had a question regarding the situation of Jehovah's 
Witnesses in Kazakhstan. We seem to be caught between two forces within 
the government. There's one force that seems to be leaning towards 
applying the rule of law, protecting our rights, and opposing forces 
that are seeking to imitate what's going on in Russia. I appreciate so 
much that you mentioned the situation of Teimur Akhmedov, who's in 
prison right now, basically on trumped-up charges. Do you have a 
comment on whether the rule of law is strengthening, or whether the 
legal status that we have right now is even more in danger?
    Amb. Kozak. In Kazakhstan?
    Mr. Brumley. Kazakhstan.
    Amb. Kozak. It's hard trying to predict these different forces. 
Particularly when a lot of these states in that region have had the 
same leader since they became independent. President Karimov dying 
shows that nobody is immortal and so I think people are thinking about 
somewhere down the line. Unfortunately, Jehovah's Witnesses and other 
groups get caught up in all of that.
    Mr. Brumley. Yes.
    Amb. Kozak. So it's kind of hard to predict what they will do. What 
I can say more is what we're urging them to do is follow the rule of 
law.
    Mr. Brumley. Right.
    Amb. Kozak. Don't persecute groups as they've tried to do it a la 
Russia, where they say any religious thought that isn't approved by the 
government is ``extremism.''
    Mr. Brumley. Right.
    Amb. Kozak. When was the last time that a band of Jehovah's 
Witnesses took up arms and attacked somebody? It's----
    Dr. Mark. Never.
    Amb. Kozak. Exactly. [Laughter.] So it's just manifestly absurd 
what they're worrying about. That's what we're trying to get across to 
them: don't do it. But as you say, it's a struggle to try to figure it 
out. You become sort of a surrogate or something for other struggles 
that are going on.
    Mr. Brumley. It's true.
    Amb. Kozak. I think the best we can do is to push back and say, 
look, neither one of you have an interest in picking a big fight over 
this, and what does it get you? So we need to increase the cost and 
then also increase the reward of doing the right thing.
    Mr. Brumley. Thank you. Good.
    Amb. Kozak. We'll keep trying, as I know you will.
    Mr. Brumley. Yes.
    Dr. Mark. Thank you. Thank you, Ambassador.
    I was actually just very recently back from Uzbekistan, which was 
an interesting trip. But last night we hosted with Senator Lankford a 
briefing on the Hill on Turkey. We had different other members of the 
commission there very recently. They were actually the first Americans 
who are not from the embassy and not his family to see Pastor Brunson 
since his detention, and that was obviously a very affecting experience 
for them.
    Amb. Kozak. Yes.
    Dr. Mark. In the little picture--not that it's insignificant, but 
just that there's a focus on one person--it seems like they're holding 
this man hostage. They want Gulen, other things. Then the big picture, 
of course, is everyone's aware of the extreme exacerbation of the 
situation there for human rights in general in the last year and a half 
and the rising authoritarianism of Erdogan. My question is--it's 
sensitive, I guess--what's next for U.S. policy? What should we expect 
or what could we expect in terms of a response on these issues? Or are 
political and economic and military considerations with the situation 
in the Middle East too great that we're just going to have to look the 
other way on these things?
    Amb. Kozak. I don't think anybody is arguing for just looking the 
other way. But you're right that there is a tension in there. This all 
started with the attempted coup in 2016, which we condemned and believe 
that the Turkish Government was absolutely entitled to go after, and 
through a transparent legal process, bring to justice the people who 
had perpetrated that.
    Instead, they've extended over and over beyond all reason the state 
of emergency, used it then to go after this whole cacophony of groups. 
It's hard to even figure out why they're going after somebody, on 
grounds that they're Gulenists or something. That remains a matter of 
big concern.
    We talk about it privately. We talk about it publicly. We're urging 
the Turks, as Secretary Tillerson did publicly, to not just to release 
Pastor Brunson. As he said there's absolutely no justification for 
holding this man. But for all of the similar actions that they've taken 
against other people, tens and hundreds of thousands of people now that 
have been removed from their jobs, and so on, on sort of vague 
allegations of association with Gulenists.
    On the other side of it though, Turkey remains a valued NATO ally, 
a very important partner in a number of activities there, and we have 
to pursue those as well. I think it's not an either/or deal, but it's a 
how do we walk and chew gum and try to deal with both sets of issues at 
the same time--and not always easy.
    We saw, unfortunately, the Turkish representative at HDIM walked 
out on the first day on grounds that the OSCE had registered an 
American NGO that the Turks accused of being Gulenist. Obviously we 
said no, we ought to apply the rules--if an organization is on the U.N. 
terror list or something, yes, but you can't just declare somebody a 
terrorist in order to keep them from attending a meeting. So there have 
been a lot of difficult conversations with the Turkish authorities. But 
at the same time we are also trying to find those areas where we have 
common interests and work with them on that. Stay tuned is, I guess, 
all I can say.
    Dr. Mark. Thank you.
    Amb. Kozak. Thanks.
    Mr. Hurd. We'll now open up the discussion to those of you that are 
here in the audience. If you could please state your name, and if you 
have an affiliation, state that as well. We do have probably quite a 
few questions as well as our subsequent panelists. So if you could keep 
your comments and your questions brief, that would be much appreciated.
    And if you could step to the microphone, please. Thank you.
    Questioner. Thank you very much.
    Ambassador, great to see you outside of HDIM, where we met last 
time, in Warsaw. My name is Alex. I'm a journalist from Azerbaijan.
    I want to ask about the country where almost half of political 
prisoners are actually religious prisoners, and the odd thing is that 
they get less attention from the U.S. than others. If that's the case, 
I wonder why.
    My second question--I do see your point about the Magnitsky Act and 
waiving the act towards the countries which tend to be our best 
supporters when it comes to Afghanistan and others, let's say, on 
national security-related issues. But what contradicts that opinion is 
about repression. Let's say radicalization is through repression in 
countries like Azerbaijan, and that that is a challenge too. So which 
one is harder? Should we talk about Afghanistan or the new Afghanistan 
if this continues to be the case?
    Thank you very much.
    Amb. Kozak. No, thank you. On political prisoners versus religious 
prisoners, we tend to deal with them together. Often it's difficult to 
get into the heads of the persecutor to figure out, were they 
persecuting this person because of their faith or were they persecuting 
them because their faith group is suspected of being politically 
opposed to the government, or something like that? We don't tend to 
prioritize one over the other. Obviously if it's our Ambassador-at-
Large for Religious Freedom who's out talking to another government, 
they tend to focus on people where it's very apparent that they're in 
for religious reasons. The rest of us tend to run the two together and 
pick.
    Oftentimes, too, what you try to do is start to get a chink in the 
armor of the other side. So if they've got thousands of political 
prisoners, you go in and say we ought to release all thousands of them, 
and they say we heard you, we're not going to do that. They're 
terrorists. And that's the end of the conversation.
    But when you're able to say, OK, here are four people or something 
that you've got in, and we've really studied their cases, and there's 
no justification, you have a better shot at it. When you do that, you 
can then multiply on that and say, OK, you let those four go and you 
actually got some good press out of it, and here are 10 more people 
that are very similar to the ones you just released. So it's a tactical 
deal how you approach that.
    On the national security stuff and whether you care about 
Afghanistan or Iran, we care about all of them, the threats posed by 
all. These are judgment calls. Is it better to keep some sanction on 
somebody to make our point, and can we forgo their cooperation on 
something we care about? Sometimes the answer is yes, that the 
cooperation isn't that valuable and making the point is. Other times 
we've got an immediate problem here we have to deal with. We need their 
cooperation on that, so we'll waive the sanction.
    It's not like we're not doing anything. We're also calling them to 
task and making comments about them in the U.N. system and the OSCE and 
so on. So it's how do you get the sweet spot between all of those. 
That's always the dilemma.
    Mr. Hurd. There are additional questions from the audience. If you 
could please come to the microphone if you're able to. Also, just a 
reminder that those of you that are watching online, you can actually 
pose questions on Facebook as well.
    Questioner. I have a pretty good voice, but I'll use this.
    Ambassador Kozak, I am retired State Department and worked in DRL 
for a number of years. So recently, when our president began to 
emphasize sovereignty, it gave me some pause, because, as most of us 
know very well, in many countries individual freedoms, including 
religious freedom, simply do not play a part in the rights that are 
recognized for people.
    Amb. Kozak. Yes.
    Questioner. That's a determination of the government in the 
exercise of their sovereignty. If we are emphasizing recognition of 
sovereignty, have we diminished our grounds for speaking to these 
countries about their violations of what we consider the rights of 
their citizens or residents of their territory? And if so, how are you 
working around that?
    Amb. Kozak. Good question, and good DRL colleague.
    I think when the president has emphasized sovereignty and so on, it 
was more in the sense that we're not going to be constrained by 
constructs of groupings of countries. This has been largely in the 
trade area and so on, that we should be able to go out and state our 
own point of view and be able to deal with other countries as we see 
fits our own interests, which includes promotion of human rights. I 
think he and the secretary have both been clear on that.
    It's not saying that sovereignty means that you can ignore God-
given human rights. I think that they've come across pretty strongly on 
that as well. I think when the secretary rolled out the religious 
freedom report, he said, I don't want to just call out our enemies. I 
want to call out our friends too. And he did. He expressed concern 
about a number of countries that we have very close relationships with.
    I think what you see, as you go kind of issue by issue, what are we 
doing about it, the administration has been very clear that, for 
example, people should not have violence committed against them or be 
discriminated against because of their religion, because of their 
political view, because of their status as LGBT, because of 
disabilities. It's all the things we've always been concerned about. 
But they're coming at it from the standpoint of the individual. No 
individual should be subjected to that, regardless of what the supposed 
motivation is.
    I think the thing I would mention that maybe will make you a little 
more hopeful is internationally, at the HDIM, I was really taken by how 
thoroughly we won the battle of ideas on individual rights versus state 
sovereignty during the Cold War. As each of those countries got up and 
talked, you either had countries like Uzbekistan, who were earnestly 
trying to explain the reforms they were undertaking to comply with OSCE 
commitments and so on, or you had the Russias of the world standing up 
and saying, well, the Americans and the Western Europeans violate all 
these things too, so nobody should blame us.
    But they weren't questioning that these were the standards that you 
should live up to, that it was either, ``You're just as bad as I am,'' 
or ``I'm really trying to be better,'' was sort of the thing. I think 
that was good. It's a strength that we have and that we can work with, 
the fact that that is widely accepted now, is that universal human 
rights really are universal.
    Even the Russians tried their old trick of saying, we have to spend 
a day on economic, social and cultural rights, because those are just 
as important as civil and political rights. Our people, to get the 
agenda agreed, agreed to that. So when it came time to do it, I led off 
and read our statement about what we do to protect economic, social and 
cultural rights in the U.S. The Russians gave a speech about how 
disgraceful it was that the U.S. wouldn't speak to this issue. It was 
like, were you listening? It was a tactic from their standpoint, from 
the old Soviet playbook. But then they didn't bother themselves to talk 
about economic, social and cultural rights in Russia.
    So it's really a strength that we've got, that the values that we 
hold dear have been so well internalized internationally. You really 
don't get that pushback--we don't have to follow these values because 
we have sovereignty. That's why the Russians and the others, the Turks 
and everybody, go to these great lengths to create these antiterrorism 
laws and all, because they're trying to find some way to justify what 
they're doing rather than just saying it's OK for us to be doing this. 
So this is something we can work with, and we can keep holding people 
to account. I think it's a strength we forget we have, and we ought to 
use it more often.
    Questioner. Hello. Thank you for being here today. My name is 
Nathan Wineinger. I'm the director of policy relations with the 21st 
Century Wilberforce Initiative.
    My question: As an advocacy organization, we interact with all 
sorts of different organizations around the world on international 
religious freedom. As you work with foreign governments or talk to 
foreign officials or travel abroad--and this question can be for anyone 
on the panel--what are the particular policy mechanisms that you see, 
such as the Global Magnitsky Act, that people within foreign 
governments are starting to look at and pay attention to as potential 
areas where we can begin to advocate more effectively on?
    Amb. Kozak. I think some of the mechanisms we have that are most 
effective are sometimes the ones that are least dramatic. You mentioned 
working with civil society groups. One of the things that our embassies 
do all over the world and that we do when we travel abroad, also our 
colleagues from the regional bureaus, the secretary himself, the 
president, is meet with civil society.
    When somebody is being repressed in a country, the fact that a 
senior foreign official will meet with the repressed people, it's a 
real dig at the government. The government usually is trying to say we 
can repress you and we can make the Americans stand by and ignore it, 
and so don't think you'll ever be able to get out from this. Just by 
having a meeting with them, we destroy that narrative and say, look, we 
value our engagement with the people in civil society or in the 
religious community that we're meeting with as much as we do that with 
the government. That tends to equalize them up.
    That's a huge thing. It doesn't cost very much. You don't have to 
have legal sanctions and have the treasury and everything else doing 
it. I think that is effective. The calling people out--we use the U.N. 
mechanisms a lot. We use OSCE a lot to say what about this, what about 
that.
    During HDIM, we had, and still have going on, the oppression of gay 
men in Chechnya. And we were every day asking the Russians, what are 
you doing about this? They didn't have their story down straight, and 
they would tell a different story every day and then contradict 
themselves in the press. We had a good time. That put pressure on them. 
We weren't doing it to embarrass the Russian Government. We were doing 
it to get them to do serious investigation and put a stop to this. I 
think that can be effective too.
    Then we have a variety of tools. One that often gets done and 
nobody knows about is, in the Immigration and Nationality Act, there 
are exclusions for people who've committed torture or extrajudicial 
killings and so on. Our consular officers just apply that and deny your 
visa. It doesn't necessarily involve a big policy action, but it means 
something to the person who had it denied.
    Then we have the more policy-oriented exclusions as well, either 
under Section 212(a)(c)(3) or 214(b)--or not--214(b) is exclusion for--
212(f) is what I'm thinking of; 214(b) is what happens to you when you 
don't have visible means of support. You get denied.
    But anyway, the upshot is those kinds of things can have a real 
effect on people. I've been dealing with Venezuela of late, and, you 
know, there we denied and revoked the visas of a number of people who 
were involved in repression, including top generals and judges, 
prosecutors who were persecuting people. The impact is pretty sizable. 
You get other ones coming saying, please, please, what do I have to do 
to stay off your bad list? The answer is, don't repress people. But 
they make me do that. Well, no, you could actually resign, or refuse to 
do it, or something.
    There are a lot of tools like that that are very effective. The big 
sanctions can be effective. But they're kind of a blunderbuss weapon. 
You sometimes hit more than you intend. It's finding the right 
combination of rhetorical--we do programmatic things to try to 
strengthen oppressed groups in other countries and give them support. 
Financial stuff, visa stuff, solidarity. All of those things in the 
right mix can have a real impact. But it's a constantly moving game, 
too. You can't just do something and then sit back and watch it. You 
have to keep working it.
    Mr. Hurd. We have a question from one of our viewers on Facebook.
    Ms. Hope. We do, from James on Facebook. He says: ``Your genuine 
interest in the treatment of religious minorities, such as the 
Jehovah's Witnesses, is commendable. Have you seen any movement on the 
part of decisionmaking bodies in Russia that provides any basis for 
change?''
    Amb. Kozak. I guess my answer, as of today, would be no, 
unfortunately. But we don't give up easy, so we'll keep trying to bring 
this to their attention and see if we can get them to change their 
ways.
    Mr. Hurd. Are there any more questions from the audience?
    Well, thank you very much----
    Amb. Kozak. Thank you.
    Mr. Hurd. As you can see, you have the rare diplomat who's 
transparent and candid, which is always much appreciated.
    Thank you for your remarks and your insights.
    Amb. Kozak. No, thank you very much. And thanks to the commission 
for keeping the focus on these issues. It really makes a difference.
    Mr. Hurd. Thank you.
    Amb. Kozak. That's another thing you can do when I'm adding to the 
list of measures is exactly this kind of thing. It does help.
    Mr. Hurd. Now we'll return to the rest of our panel, starting with 
Chairman Mark.
    Amb. Kozak. Excuse me for bailing like this.
    Dr. Mark. Thank you very much to my friend Mr. Hurd, and thank you 
to the Helsinki Commission, particularly the chairman and co-chairman, 
Senator Wicker and Representative Smith, for holding a briefing on this 
very important topic.
    As you heard, my name is Daniel Mark, and I am chairman of the U.S. 
Commission on International Religious Freedom, or USCIRF, as we are 
affectionately known.
    A quick word about USCIRF. USCIRF was created in 1998 by the 
International Religious Freedom Act. You heard a bunch about that just 
before, commonly known as IRFA. IRFA also created the State 
Department's Office of International Religious Freedom, as well as the 
position of Ambassador-at-Large for International Religious Freedom. We 
are very pleased that President Trump has nominated Governor Brownback 
to that position. It's a position that ought to be filled. We do hope 
that the Senate will end its delays and swiftly confirm him to this 
critical position, as Ambassador Kozak said.
    We at USCIRF are tasked by Congress to monitor and review religious 
freedom abroad and to make policy recommendations to the president, 
secretary of state and Congress. To that end, Nathan's question was 
very germane in thinking about what are the things that actually work. 
If I could just digress for one moment on that and say that another 
thing, especially just coming from this Uzbekistan trip that's been 
very much on my mind, not just thinking about which are the big 
policies that are most effective, but what are the very specific things 
you can ask them to do that are doable, that you can really get.
    Just to finish that thought with a specific example on Uzbekistan. 
In Uzbekistan, the government recently approved 3,000 more copies of 
the Christian Bible to be printed in that country and distributed. But 
that's not enough. Can they do more? You can ask them, can we have 
3,000 more? Can they register--not just open up registration? That'll 
take time. But can they register one church in an area that has no 
churches? It's a very large country.
    Typically Christian preachers are not allowed to preach in the 
Uzbek language, and not even allowed to have somebody doing 
simultaneous translation next to them. Can they allow perhaps 
preaching? And they do that, of course, to prevent the religion from 
spreading. These are things that are very specific, very concrete, and 
relatively small compared to the big things that we also need them to 
accomplish.
    So that helps. I say that in the context of talking about our 
mandate to make recommendations, which include the kinds of things that 
Nathan was asking about, but also thinking about recommendations for 
the U.S. Government to ask for very specific and concrete things that 
are doable. In any case, that's part of our mandate.
    The other thing we do that you heard about is, we make the 
recommendations to the State Department for CPC designations, Countries 
of Particular Concern. In April, along with our release of our annual 
report, which is out every year on time by the legislatively mandated 
deadline, we recommend 16 countries for designation as CPC because we 
believe they meet the legal standard of perpetrating or tolerating, 
quote, ``systematic, ongoing and egregious violations of international 
religious freedom.''
    Religious freedom in the OSCE region is always a concern for 
USCIRF. Of course, as I just said, it's at the forefront of my mind, 
because I just returned a little more than a week ago from Uzbekistan. 
My fellow commissioner, John Ruskay, was there, as well as USCIRF 
policy analyst Andrew Kornbluth, who was with us as well. We had a very 
productive week. I'll say more about that soon.
    USCIRF monitors a number of OSCE countries that were formerly part 
of the Soviet Union, as well as some others that weren't. My remarks 
today will be limited to just some of those, and especially the ones 
that we recommend for CPC designation, including Turkmenistan, 
Tajikistan, Uzbekistan, and, for the first time in this year's report, 
Russia.
    The State Department agrees with us on those other three. On the 
last, on Russia, it remains to be seen, because there hasn't been, as 
you just heard, a new round of CPC designations since our report came 
out this past April. We certainly encourage the State Department to 
make CPC designations in line with our recommendations, which are based 
on a careful and thorough review of all the available information on 
religious freedom in those countries. I must add, to emphasize, that 
the State Department did miss on Monday its legislatively mandated 
deadline for designating CPCs. I'm glad to hear that Ambassador Kozak 
is on top of it, has an explanation for it, and hopes to see it done 
soon.
    I want to echo what he said about the excellent statement that 
Secretary Tillerson made when they released the International Religious 
Freedom Report three months ago. It was a bold and thorough statement. 
We hope that that rhetoric will be followed up with timely designations 
and action.
    It sounds like, from what we heard from Ambassador Kozak, that 
these should be one-time delays. They didn't know about the EPC 
delegation of authority. So if next year we're hearing the same story, 
we know there's a problem. But it sounds like all the things that he 
accounted for are things that could be settled this year and not recur 
next year.
    USCIRF also has a Tier Two that includes countries that have severe 
violations and that meet with at least one element of the systematic, 
ongoing and egregious standard. Within the OSCE region of the former 
Soviet Union, our tier two includes Azerbaijan and Kazakhstan. I asked 
about Turkey, but I'm not going to talk about that today.
    Unfortunately, we at USCIRF are not optimistic with regard to the 
outlook for religious freedom in the OSCE countries we monitor. 
Generally speaking, the trend has been toward authoritarian governments 
imposing more and unwritten restrictions on expressions of religion. 
These restrictions are arbitrarily and capriciously enforced by courts 
that are not independent from the executive branch in their respective 
countries. Punishments range from police harassment and fines in the 
mildest cases to effective life imprisonment and death in prison by 
torture, starvation, in the most severe.
    Uzbekistan, which has long been designated as a CPC by the State 
Department, and long recommended by us, is the one OSCE country 
reported on by USCIRF that currently seems to offer hope for 
improvement, although, as I will explain, USCIRF is still waiting for 
more evidence on much-needed reforms.
    The religious freedom conditions in the OSCE countries monitored by 
USCIRF are similar in part because of their shared legacy of Soviet 
communist government. In the Soviet Union, all social and political 
movements not affiliated with or endorsed by the state were subject to 
constant scrutiny and repression by the omnipresent security services. 
Moreover, the state was officially atheist. I have to say, being in a 
country like Uzbekistan, you are reminded of how awful the legacy of 
communism. Everywhere communism went, it's just left devastation.
    After the fall of the Soviet Union, elements from the security 
services became the ruling elites in many of the newly independent 
countries, and they remain deeply hostile to independent social 
mobilization. At the same time, the immediate aftermath of the Soviet 
Union's collapse from the early to mid-1990s was a time when the 
restraints on civil society imposed during the Soviet Union were 
temporarily relaxed as new regimes worked to consolidate their power.
    In this early period, about a quarter of a century ago, many 
citizens of the new republics began to renew or re-examine their 
traditional faiths. Proselytizing movements, both Islamic and 
Christian, were able to operate relatively freely, connecting adherents 
to global religious trends and movements. By the late 1990s, the former 
Soviet countries viewed the wave of renewed religiosity with growing 
alarm. The authoritarian regimes, guided by the security services, were 
also more confident of their strength and ready to re-establish full 
control over civil society.
    It was at this time that the legal architecture underpinning the 
repression of religious belief first began to be formulated. The 
linchpin was religion laws, which consisted of three restrictions--the 
requirement that religious communities register with the government, 
effectively requiring all religious groups to obtain government 
sanction for their legal existence; restrictions on the possession and 
distribution of religious literature; and restrictions on where and how 
proselytizing could occur--mostly it can't--with the aim of stopping 
and controlling the spread of religious ideas that were not officially 
approved.
    Within a few years, laws on extremism, as we just heard, became 
another widely used tool for suppressing religious expression. While 
OSCE member countries monitored by USCIRF do have legitimate security 
concerns, their laws define extremism extremely vaguely to permit the 
suppression of virtually any kind of expression, religious or secular. 
With the rise of international terrorism, the need to combat radicalism 
became an even more convenient pretext for shutting down all forms of 
expression not approved by the government.
    One of the surest proofs that extremism laws are often less about 
fighting terrorism than about repressing peaceful expression is the 
fact that Christian minorities in all of these countries, who pose no 
security threat whatsoever, are persecuted under these same statutes. 
Indeed, legitimate security concerns notwithstanding, these laws are 
often little more than legal excuses for the governments to take 
whatever actions they want against any individual or group they want.
    It is these religion laws and the misuse of extremism laws that 
most concern USCIRF in the OSCE member countries that we report on, 
along with the corresponding arrests, torture and imprisonments. Our 
view of these countries shows that, for the most part, religious 
freedom conditions are only getting worse. The Russian Federation, 
which in many ways inspired or pioneered the use of religion and 
extremism laws to suppress religious freedom, has doubled down on 
religious repression. As everyone here is likely aware, this year saw 
the banning by the Russian supreme court of the Witnesses as a 
supposedly extremist organization.
    While many observers wondered why Russia would target the 175,000-
strong community of Witnesses, it fits a pattern of suspicion of the 
community dating back to the Soviet period--unwarranted suspicion. In 
addition, it is consistent with the effort on the part of the Russian 
security services to prove their success against extremism by going 
after a minority incapable of resisting.
    The year before, in the name of combating proselytism, Russia also 
passed a law that effectively criminalized all forms of religious 
speech. Currently, one member of the Witnesses and five Scientologists 
are being held in pretrial detention, while dozens of Muslims are 
serving prison terms for peaceful expression of religion, or in some 
cases fabricated terrorism charges.
    In the occupied Crimean Peninsula, Russia continues to persecute 
the native Crimean Tatar population, which it distrusts because of its 
Muslim identity and loyalty to the Ukrainian state.
    Turkmenistan is perhaps the most egregious offender among the OSCE 
countries on our roster. Religious prisoners disappear in the notorious 
desert prison of Ovadan Depe, where they are held incommunicado under 
horrific conditions. One religious prisoner who died in the prison in 
2016 is said to have weighed 55 pounds at the time of his death. No 
wonder, then, that another observant Muslim is believed to have 
committed suicide in December of last year rather than face arrest and 
imprisonment there.
    In Tajikistan, the government's persecution of Muslims and 
Christians alike has become more zealous and shows no sign of relaxing. 
This year a Christian pastor was sentenced to three years for 
extremism. A teenage Witness conscientious objector received six months 
in jail. And Buzurgmehr Yorov, the lawyer for the banned Islamic 
Renaissance Party of Tajikistan, was sentenced to more than 20 years in 
prison, where reportedly he is tortured regularly. In addition, the 
government has launched new campaigns interfering in everything from 
the wearing of hijabs to the food served at wedding banquets.
    With regard to Kazakhstan, USCIRF was deeply disappointed by the 
decision of that government to raid Witness Kingdom Halls only days 
after a meeting between government representatives and our commission, 
USCIRF. Kazakhstan's parliament is currently considering a number of 
changes to the laws, which may lead to further tightening of controls 
over religious life. This year the government also gave Witnesses a 
three-month ban on religious activity, and a member of their community 
who was ill with cancer was sentenced to five years in prison, 
allegedly for proselytism. In Kazakhstan, USCIRF is also concerned that 
campaigns against Salafism mask attempts to repress political unrest 
more generally.
    I emphasize that USCIRF understands that many of the countries we 
follow have legitimate security concerns. Security and religious 
freedom are not mutually exclusive.
    USCIRF is guardedly optimistic about the situation for religious 
freedom in Uzbekistan, particularly since our trip there. Although 
Uzbekistan has long been regarded as a severe violator of religious 
freedom, the new president, Shavkat Mirziyoyev, has relaxed 
longstanding restrictions on the majority Sunni Muslim population. In 
many circles there is real optimism, and we heard that as a consistent 
theme in our week.
    That being said, the continuing atmosphere of fear and intimidation 
among Uzbek Christians and others is palpable. Registration of 
religious groups and the possession of religious literature are tightly 
controlled, and policies such as registration are used as tools to 
surveil and harass believers. Intimidation, arrests and torture remain 
a constant fear for both proselytizing Christian groups and those who, 
for whatever reason, fall afoul of the police.
    Moreover, thousands of Uzbek Muslims continue to serve long prison 
sentences on trumped-up charges or fabricated charges. While we are 
hopeful about the future, USCIRF also wishes for the Uzbek Government 
to be more forthcoming and transparent about the substantive reforms to 
the architecture of religious control in their country.
    In conclusion--and thank you for bearing with me a little bit 
long--USCIRF calls on all OSCE countries to adhere to international 
standards of religious freedom. Although the bright spots are few and 
far between, we remain hopeful that even the most egregious violators 
will change their practices for the better, and we are ready to engage 
in dialogue with any OSCE member ready to do so.
    Thank you.
    Mr. Hurd. Thank you, Chairman Mark.
    Dr. Collins.
    Dr. Collins. Good afternoon, ladies and gentlemen. Thank you for 
coming today, and thank you especially to Mr. Hurd and the Helsinki 
Commission for organizing this panel to bring attention to the timely 
issue of religious repression in the OSCE region.
    In the interest of time, I will focus on the evolving situation in 
Kazakhstan and Kyrgyzstan and highlight in particular my findings with 
the Under Caesar's Sword project, which focuses in particular on 
Christian and other religious minorities across that region.
    I agree with Dr. Mark. I'm quite skeptical about the prospects for 
the improvement of the religious situation across the region. The 
regional trend has been to adopt steadily more restrictive laws on 
religion together with changes in the administrative and criminal 
codes, and broad laws and programs that blend and merge religious 
practice with extremism and terrorism. The governments in the region 
look to each other and Russia as justification for these changes. 
Russia is the trendsetter, as you mentioned.
    Across the region, with the partial exception of Kyrgyzstan, the 
legal framework for religion and the de facto implementation of these 
laws have in fact created a situation little better than during the 
later Soviet era. Thank you for mentioning that because the parallels 
are really quite striking. This is true in particular for the minority 
Christians and for any Muslims acting independently of the state-
controlled Muslim hierarchies.
    Kazakhstan, before its 2011 religion law, was in fact one of the 
most liberal religious environments in the region. Following the law, 
and especially since the adoption of new amendments in 2016--December 
2016--Kazakhstan has increasingly curtailed religious freedom and 
engaged in continual violations of religious and human rights. The 
legal framework now includes broad provisions banning extremism, 
including the incitement of ethnic, religious or social discord, which 
is used very broadly.
    Censorship of religious literature is also quite broad, banning 
already over 700 works. Crippling fines are imposed without recourse to 
court hearings. This year police raided several Protestant churches 
during Easter Sunday services, and scores of Christians were harassed 
and intimidated. There are multiple reports of churches being closed 
for several months at a time for alleged legal violations.
    The new Kazakh Ministry for Religion in Civil Society, the state 
media, the Muslim Board, and the Russian Orthodox Church in Kazakhstan 
all collaborate in using intolerant rhetoric about groups they deem 
nontraditional. They foment societal animosity towards those groups, 
and the state has created anti-sect centers which are eerily 
reminiscent of Soviet policy. Under its new program to counter 
religious extremism and terrorism, even children are encouraged to 
report on those praying at home.
    The recent turn to much harsher treatment of converts in Kazakhstan 
is particularly notable. For example, in late 2015, Seventh Day 
Adventist Yklas Kabduakasov, a recent convert to Christianity, was 
sentenced to two years imprisonment in a penal camp. The secret police 
had used extensive surveillance to trap and video record Mr. 
Kabduakasov discussing his faith in the Bible with other Kazakhs. He 
was charged as an extremist with inciting religious hatred against 
Islam.
    This past year, multiple others, both Muslim and Christian 
minorities, have faced similar charges and prison terms. Jehovah's 
Witness Teimur Akhmedov, who I am sure you will discuss, was arrested, 
tortured in detention, and given a sentence of five years in a penal 
camp under very similar circumstances and charges.
    In another case targeting converts, a pastor has been charged with 
allowing a child to attend a religious service with his father but 
without his mother's express permission. Followers of Tablighi Jamaat, 
another minority Muslim organization banned in Kazakhstan, are also 
regularly harassed, fined, and given prison sentences.
    The Kazakh Government has recently proposed multiple new amendments 
in addition to those passed just last December. If adopted, these 
changes would further move Kazakhstan in the direction of its most 
repressive neighbors. Among other things, new provisions would ban 
teaching religion outside approved religious organizations of which 
there are very few. They would further restrict sharing religious 
beliefs and task local government with monitoring places of worship and 
religious practice. Penalties for violators would be significantly 
higher.
    Kyrgyzstan likewise remains a country to watch. By comparison with 
its neighbors it generally looks relatively good--de facto religious 
practice has been considerably more free--but legal and societal trends 
raise alarm. Although previously known for religious tolerance and 
greater civic space, the 2009 law on religion and 2012 amendments are 
much more repressive. The law criminalizes unregistered religious 
activity while it has made registration far more difficult. The law 
still stands, despite religious groups' appeals to reverse it, despite 
international recommendations, and despite a supposed democratization 
process that has been going on since 2010.
    This past spring, the State Committee on Religious Affairs in 
Kyrgyzstan proposed draft amendments that would make registration even 
more difficult, requiring now 500, not 200, signatures. All religious 
literature would be subject to mandatory censorship. The changes would 
effectively ban any dissemination of religious views by those not 
registered as missionaries, and they would restrict the private 
teaching of religion.
    The proposed amendments have the support of many in government, the 
Muslim Board, and the Russian Orthodox Church. Minority religious 
organizations have been afraid to voice opposition. This is a moment 
when pressure from the international community and from the U.S. 
Government, I think, is absolutely critical to preserving some 
religious freedom for minorities in Kyrgyzstan.
    Finally, societal discrimination against converts across the region 
continues to be high and is worth noting. In Kyrgyzstan, for example, 
local government and police foment societal mistreatment of converts, 
especially in conflicts over burial places.
    The Under Caesar's Sword research project has been studying the 
response of Christians where they face repression and persecution. 
Christians' responses clearly vary with the level of repression and the 
realm that they have to operate in civic and public space. Their 
predominant strategies in Uzbekistan, Turkmenistan and Tajikistan 
reflect decades of Soviet-era experience. They hide, they avoid 
confrontation with the state, they pray in private or in-house 
churches, and they focus on mere survival. Others just simply emigrate. 
They occasionally disseminate Bibles or religious literature to friends 
and family, but most avoid any public sign of their faith. Yet even in 
these contexts, some Christians are more proactive and engage in 
proselytism, but they do so at enormous risk, as we've seen with the 
case of Jehovah's Witnesses.
    By contrast, in Kazakhstan and Kyrgyzstan, where the situation has 
been somewhat better since independence, Christians have found paths 
yielding some limited success since 1991. For example, some churches 
have built ties with local government to pursue their religious calling 
through charity and social work. Church members provide care for 
orphans and the disabled, and care for the sick and hungry. They 
minister to prison inmates. This is all the basic charitable work of 
faith-based groups anywhere.
    Multiple churches have established rehab centers for drug and 
alcohol addiction, a huge problem in the region, and they provide 
assistance to victims of domestic abuse. This is the work that the 
Central Asian regimes generally do not prioritize and often have 
limited funding and skills to do. Hence, local governments occasionally 
have allowed Christians to fill this important role.
    In Kazakhstan, Christians have also engaged in interfaith dialogues 
with each other and the state in attempts to facilitate mutual respect. 
In Kyrgyzstan, an interfaith council, organized after the 2010 
revolution, has organized civic projects and charitable work together 
with Muslims to bridge differences. Much more such work is needed to 
reduce interfaith hostility, especially against converts.
    Churches have also--albeit rarely--banded together to protest 
unlawful arrests and torture. In the case of the arrest and psychiatric 
detention of Pastor Kashkumbayev in Kazakhstan, Christian churches 
protested. The Association of Religious Organizations of Kazakhstan, 
which includes about 600 churches, has often used its position and 
numbers to pressure the parliament to respect religious freedom.
    The changes in the Kazakh legislation over the past year and the 
pending draft amendments in Kyrgyzstan pose such a threat to such civic 
work. Not long ago, for example, Christian women ministering to hospice 
patients in Kazakhstan were given crippling fines for reading the Bible 
and sharing the New Testament with the dying in their hospice centers. 
The Kazakh police have raided Baptist and other church youth camps, 
accusing them of violating religious laws and intimidating the children 
who were in attendance. Churches that engage in similar activities live 
in fear of closure and prosecution. One church in Kazakhstan has 
already closed five rehabilitation centers.
    To conclude, the religious situation across the region is extremely 
poor and, I would argue, declining. Negative trends in Kazakhstan and 
Kyrgyzstan are particularly worrying, especially for religious 
minorities. Both society and state will suffer if the faith-based civic 
and humanitarian organizations that have worked there for the past 25 
years are further restricted and ultimately shut down.
    Thank you.
    Mr. Hurd. Thank you.
    Before turning it over to General Counsel Brumley, just a note. The 
fact that he is last is not an indication that his is the least 
important presentation. It's actually an indication that it is the most 
important. Whether it's at a congressional briefing, a congressional 
hearing, other events on these issues, the voice of the individuals and 
groups that are being persecuted, whether it's for religious freedom or 
other human rights violations is actually most important for us to 
hear. I wanted to make sure that before we had our final question and 
answer period that his was the last voice that you heard.
    General Counsel Brumley.
    Mr. Brumley. Thank you for those kind words, Mr. Hurd. And we want 
to thank the U.S. Helsinki Commission--Chairman Wicker, Co-Chairman 
Smith, and you particularly, Mr. Hurd--for hosting this briefing.
    It has been also very illuminating and encouraging to hear the 
words of Ambassador Kozak, Dr. Mark, and Dr. Collins. Their insightful 
comments confirm our own concerns about the situation of Jehovah's 
Witnesses in the OSCE region.
    There are over 8\1/2\ million Jehovah's Witnesses worldwide. Over 3 
million live in the OSCE region. We enjoy religious freedom in 51 of 
the 57 participating States. The exceptions include Tajikistan, 
Turkmenistan, Uzbekistan and, since last April as we know, the Russian 
Federation.
    When domestic courts have failed to protect our fundamental rights, 
we have resorted to seeking relief from international tribunals. Since 
1993, we have obtained 64 favorable rulings from the European Court of 
Human Rights and 11 favorable decisions from the U.N. Human Rights 
Committee. But, Mr. Hurd, by far the worst problems we are facing in 
the OSCE region--by far--have to do with Russia, so I'll be 
concentrating on Russia in my presentation.
    In 2006, the government amended its law on counteracting extremist 
activity. It removed incitement to violence as a component of what 
constitutes extremism. The U.N. Human Rights Committee, the 
Parliamentary Assembly of the Council of Europe, and the Venice 
Commission have all strongly criticized the amended law because it 
gives the Russian Government carte blanche to prosecute anyone it deems 
to be out of step with its version of what is acceptable. So, based on 
this law as it's been amended, the authorities concocted a three-step 
process to mis-categorize Jehovah's Witnesses as extremists and to use 
this as the foundation to strip us of our fundamental rights of speech, 
press and religion.
    The first thing the government did was to criminalize our religious 
literature. And it did this through bogus expert studies, and then 
backed up by baseless court decisions. They even banned our website, 
JW.org. It's worthy to point out, gentlemen and gentleladies, that 
JW.org is available worldwide with the singular exception of Russia.
    Second, Russia criminalized local congregations who had been using 
our literature even before it was declared extremist. Once literature 
that we had formally been using was on the extremist list, we removed 
it and stopped using it, but the authorities went so far as to plant 
banned literature in our places of worship so that they could later 
discover it and bring charges. And we have this on video.
    Then, third, it criminalized our religious activity at our national 
offices and in our local places of worship. So since this amended law 
on extremism was enacted, Jehovah's Witnesses in Russia have been 
subjected to the following: searches of their homes, places of worship, 
loss of employment, having their bank accounts frozen, mistreatment of 
their children by school authorities, detentions, secret video 
surveillance of their homes, monitoring of their mail, and intimidation 
to abandon their faith. This decade-long campaign culminated, as you've 
mentioned astutely, on April the 20th with the Supreme Court decision. 
The court ruled that the administrative center and all of the 395 local 
legal entities are guilty of carrying on extremist activity and that 
their property should be confiscated and their activity terminated. Due 
to a risk of criminal prosecution, we have ceased using our places of 
worship and our national offices. Our branches in Europe, Canada and 
here in the United States inform us that there is an escalation in the 
number of Witnesses from Russia seeking asylum. We're tracking three 
developments with particular interest, and you've mentioned them.
    The first is the criminal prosecution of Dennis Christensen; he's a 
citizen of Denmark. If convicted, he faces 10 years' imprisonment. He's 
been denied bail and held in pre-trial detention since last May, and 
his offense, singularly: he was worshiping along with a local 
congregation.
    Secondly, we're giving close attention to the proceeding by the 
government to take possession of our national offices. And this is in 
complete disregard for the fact that our administrative center, or our 
national offices, are owned by the Watch Tower Bible and Tract Society 
of Pennsylvania, a U.S.-based corporation, and that the national 
offices are worth millions. The government is nevertheless seeking to 
confiscate it.
    Third, whether an appellate court will confirm a decision by a 
lower court to declare our Bible--the New World Translation--to be 
extremist. The New World Translation is available in over 150 languages 
and has been printed over 20 million copies. The very same translation 
in Russia is deemed to be an extremist publication. For just having 
this in one's possession, one risks criminal prosecution.
    These relentless and coordinated efforts confirm that Russia is 
bent on a minimum of driving Jehovah's Witnesses underground. Now, that 
said, to date, we are not witnessing mass arrests of Jehovah's 
Witnesses, but as you brought up, Dr. Mark, there are 175,000 Jehovah's 
Witnesses in Russia. The government seems to be taking the position 
that someone can be one of Jehovah's Witnesses, but you have to be one 
of Jehovah's Witnesses and keep it to yourself. Anyone who, in any way, 
engages in any activity related to our worship risks criminal 
prosecution. So the government is saying, in essence, you can be one of 
Jehovah's Witnesses, but don't associate with other Witnesses. Don't 
read your Bible or any of your literature, don't gather for worship, 
and whatever you do, don't talk to anybody about your faith.
    So we thank the many governments and their agencies, such as the 
U.S. Helsinki Commission, for your diplomatic efforts and statements. 
When we were at the hearing earlier this year--the Supreme Court 
hearing--the strong presence of the diplomatic community sent a clear 
message to the Russian authorities that the international community is 
well aware of what Russia is doing, and they're not deceived, either. 
They realized that these proceedings are nothing more than a thinly-
disguised effort to legitimize the government's goal of stripping us of 
our fundamental right to worship.
    And just, very, very briefly, I'm going to hit on the situation 
with Jehovah's Witnesses in Central Asia and in Azerbaijan. We 
mentioned that in Kazakhstan, we're caught between two camps within the 
government: one that seems to be leaning towards application of the 
rule of law and maintaining our legal status, and another component of 
government that is mimicking what's going on in Russia. We were banned 
in Tajikistan in 2007, and we continue to worship in secret. Uzbekistan 
is the second-worst offender of our fundamental rights in the OSCE 
region. Just to give you a capsule, since last September--September 
2016--there have been 185 police raids on religious meetings, 153 
convictions for religious activities, 148 fines. And by the way, these 
fines amount to 100 times the monthly minimum wage. They're not small. 
Seven Witnesses were jailed for religious activity, and there have been 
15 documented accounts of severe beatings by the police of men and 
women who are Jehovah's Witnesses. Witnesses are fined for even having 
a copy of the Bible in their home.
    With regard to Turkmenistan, we have the same situation. Bahram 
Hemdemov, a 52-year-old Witness, has begun serving a four-year sentence 
that he began in March of 2015. And his only offense, again, was 
worshiping with fellow believers. There have been some small 
improvements in Azerbaijan, but although we number less than 2,000 
Witnesses in that country, we have 18 applications pending with the 
European Court of Human Rights, and we have filed 11 complaints with 
the U.N. Human Rights Committee.
    So, in conclusion, we are gravely concerned about the welfare of 
our community in Russia. We are going to submit, for the record, a copy 
of my briefing and also a copy of a short video from Professor Heiner 
Bielefeldt--that's the former U.N. Special Rapporteur of Freedom of 
Religion or Belief, who commented on the state of religious freedom in 
Russia and gave particular emphasis to the situation Jehovah's 
Witnesses are facing in that land. His point was, or is, that as the 
space for one religion diminishes, civil society and religious freedom, 
in general, diminishes.
    Thank you, once again, for allowing us to comment on the situation 
with Jehovah's Witnesses in the OSCE region.
    Mr. Hurd. Thank you. Just a quick reminder about the Q&A. I'll ask 
each one of our panelists two questions. If you could hold your answers 
until I finish asking all of my questions, and then we'll eventually 
turn it over to the audience. We'll start with Chairman Mark.
    Taking advantage of your recent trip to Uzbekistan, in the full 
range of steps that they can and should take to improve their record 
when it comes to religious freedom, and, in particular--let's assume, 
for the sake of argument, that they're re-designated as a CPC--what are 
the most important actions the government needs to take in order to 
change that designation and improve the situation for religious freedom 
in Uzbekistan?
    Secondly, was there an acknowledgment, when you were there, from 
the authorities that their crackdown on religious freedom over the 
years might actually be undermining their efforts to counter terrorist 
groups and counter violent extremists?
    For Dr. Collins, going back to Kazakhstan for a moment, you've 
noted that prior to their 2011 religion law, at least in the region, 
they had one of the most permissive environments for religion and for 
religious freedom. Why the shift? Why the change?
    Secondly, I was particularly intrigued at your comments that in 
your research of Christian groups in the region, they rarely band 
together in response to persecution. I'm wondering what your best 
hypothesis is, or evidence is, about the ``why.''
    General Counsel Brumley, you noted that this persecution of 
Jehovah's Witnesses in Russia has been unfolding over many years. Why 
do you think it is that they've taken so long rather than just doing it 
immediately--rather than immediately banning you and taking the kind of 
measures and actions that you've outlined?
    Secondly, this is not the first time that Witnesses have been 
persecuted in Russia. It's not the first time they've been persecuted 
in some of these other countries that you've mentioned, as well as in 
other parts of the world. Historically, how have they responded to a 
situation like the one in which they find themselves now in Russia? How 
have they compensated? Has there been, sort of, a change of practice, 
et cetera?
    We'll start with you, Chairman Mark.
    Dr. Mark. Thank you for the excellent questions and for the 
opportunity to talk more about the trip to Uzbekistan. I can't capture 
in a few minutes what we experienced in a week, but there are the big 
items. They told us in a meeting with government officials and some 
others that they're working on a new religion law. Now, that's 
worrying, because in experience from other places, even Vietnam, this 
new religion law has been dragging on for years. The drafting actually 
did take some American comments and then the implementation is yet 
another year, and so on. But you've got to worry what's going to be in 
that law.
    Now, of course, in principle, it's a good thing. Oh, there's a new 
religion law; they're going to revise, they're going to reform. The new 
president does seem to be better than the last one, and so maybe will 
be helpful. So I would say that there's a giant question mark hanging 
over the thing that depends on what happens, and again, based on what 
we know so far and the general trend, not overly optimistic, but it's 
an opportunity. It's an opening, and I think, with the right kind of 
pressure, we could see some improvements.
    What would some of those look like? Well, the biggest thing that 
hangs over everything about religious freedom in the country is 
registration. Nothing can happen without registration. The group can't 
have property, it can't have services, it can't have literature. 
Everything depends, everything starts with registration. Of course, as 
we've said, registration is a problem because that's how the government 
starts its control and surveillance. Nobody wants to register.
    So we sat in front of a government official who said nobody has 
applied for registration in 10 years, to register a church. Well, why 
is that? Is it because Christians don't want to open churches? It's not 
just Christians, by the way, because Christians don't want to open 
churches. No, it's because, when they say registration involves 
providing us a list of 100 names and addresses of people affiliated 
with your church, everybody says no thank you. That's just giving them 
a list of people to pick on. That's what they're going to do, and 
everybody knows this.
    As I've been saying a lot post-trip, even insofar as the government 
does begin to implement reforms, they're going to have to work overtime 
to actually convince people that it's true and that they're sincere. So 
reforming registration--We at USCIRF and the human rights community in 
general probably would rather see this registration be done away with. 
You shouldn't have to register, but if you do have to register, there 
should be rule of law, there should be transparency, there should be 
protections and so on.
    A second thing is education. To go to another part of the world, 
you travel a long way, and so maybe it feels like it should be as 
different as it is--where children are not allowed to attend religious 
services. Ninety-five-plus percent of the country is Sunni. If you're 
under the age of 16, or 18, depending on the circumstances, you just 
can't go to weekly services at the mosque, because you're just not 
allowed. Police will stand outside and keep children out. Government 
obviously controls all the education in the country, and the number of 
religious educational institutions are extremely limited, and the 
opportunities for religious education for children outside the home are 
almost non-existent. The most basic things that we take for granted 
here.
    The third thing that I'll say, and just to give you a big three--I 
could go on of course--is prisoners. Until we are convinced that there 
are not many thousands of people being held in prison for their 
innocent religious beliefs, then Uzbekistan will not have an easy time 
getting off the CPC list. Our policy analyst, Andrew Kornbluth, who was 
with us on the trip--God bless him, he's sitting here too--was so 
diligent about asking at every opportunity, how many religious 
prisoners are there? How many have been released? Can you give us the 
name of one person who was in prison for his religious beliefs and now 
has been released? They basically ignored us. Until they want to get 
serious, at least, about it. Even one laughed and said, oh, well, all 
the information's publicly available. Well, we can't find it. So until 
they get serious about that, they're just not going to be a normal 
place.
    On the second question, is the crackdown undermining CVE efforts to 
counter violent extremism? Sure. I'll just say that the first or second 
day we were there was the day that the Uzbek terrorist perpetrated his 
attack in New York City, and that certainly gave a certain color to our 
trip. Where does that come from? How does that happen? Even if that 
person was radicalized outside of Uzbekistan, why was that person 
susceptible to the radicalization? We know that the crackdown drives 
movements underground, which is counterproductive. We know that the 
lack of education, proper religious education, leaves people 
susceptible to more radical and violent views.
    We heard an amazing story from a person--he had just been out--
three weeks out of prison after what was maybe an 11-year sentence, and 
he was just out sitting with us in a coffee shop. He said, people come 
to prison--this is the story from ``Shawshank Redemption,'' where he 
had to go to prison to become a criminal. He said that people who are 
too Muslim for the government's liking get sent to prison. Having been 
sent to prison, they see not only their own abuse, but then, the 
torture and other abuse of people and say, this is all being done in 
the name of the newfound Uzbek independence, in the name of the 
newfound Uzbek democracy. If this is what's being done in the name of 
Uzbek democracy, we want no part of it. So they come out of prison more 
radicalized than when they went in.
    Now, that's not everyone, but it was such a striking example of the 
way the persecution exacerbates the problems they have and is 
counterproductive for their totally legitimate efforts to fight radical 
Islam. It's a pretext in the first case, and then an exacerbation of 
their own problem in the second case. Certainly, it is our line that 
all around the world, countries that truly want to commit themselves to 
countering violent extremism have to also commit themselves to 
religious freedom.
    Mr. Hurd. Before turning over to Dr. Collins, I just want to 
commend the project Under Caesar's Sword, of which she is a scholar. 
Not just as something interesting and important in and of itself, but 
also as a model. There are many groups and institutions that document 
the persecution of religious groups. What makes Under Caesar's Sword 
different is that it primarily focuses on how particular communities 
are responding to the persecution itself. It's certainly a model that I 
think can and should be replicated in looking at how other religious 
groups are responding to persecution. Dr. Collins.
    Dr. Collins. Thank you very much. I would actually point you to 
Notre Dame's website, where there is extensive information about how 
different Christian communities are responding to persecution around 
the world. The focus is not just on Central Asia or Russia, but in many 
areas of the world where the situation is, sadly, even more egregious 
than what we're talking about right now.
    On your first question, Mr. Hurd, why the shift in 2011? Well, I 
think that there has been a sort of gradual move towards this across 
the region, but in particular, I think, a couple of events triggered 
the Kazakh Government's crackdown on religious groups. There was the 
Kyrgyz Revolution--regime change in 2010, which created this sense of 
vulnerability and instability in the region. The Arab Spring in 2011, 
perhaps even more so, created this sense that we're not quite 
invincible. In Azerbaijan, for example, there was a statue of Mubarak 
and Aliyev which, at the time of the revolution, was something that 
gave the Aliyev regime some pause.
    Not just Kazakhstan, but again, Kazakhstan in collaboration with 
Russia and other members of the SCO--the Shanghai Cooperation 
Organization--discuss these issues on a regular basis. They blend 
together issues of religious independence with issues of extremism and 
terrorism within the framework of their general security discussions 
and focus on security. I think these various events help, sort of, 
shift their thinking towards a mentality that we need to crack down on 
religion to a greater extent than we have in the past.
    There's also this understanding that, even though Christians aren't 
the main target, we have to engage in this kind of equal-opportunity 
repression. We're primarily worried about independent Muslim opposition 
growing in the country. But they decided, in order to justify and 
legitimize their crackdown on independent Islam, they need to more 
broadly crack down on various forms of independent religions. I think 
that's driving much of this.
    Then we see, of course, that there has been an escalation of the 
actual implementation of these regulations, post, about, 2014, when the 
growth of ISIS has made them more conscious of the security threat to 
the region. But again, it's this crackdown on both Christians and 
Muslims--as Christians and Jehovah's Witnesses are rolled into the 
crackdown on supposed supporters of ISIS. So that's on the issue of why 
this shift over the past few years.
    The second question about why Christians rarely band together is an 
interesting one and a frustrating one, I think, as somebody studying 
this region. Why don't they engage in greater collaboration? The few 
instances where they have collaborated, as I mentioned with the example 
of the AROC in Kazakhstan, with the protests about Pastor Kashkumbaev, 
have sometimes garnered some success. This has been relatively rare; my 
sense is that there are a couple of reasons for this. Probably most 
importantly is a deep culture of distrust of sharing information, 
opening up to others, even opening up to other Christian organizations. 
I think that dates well back to the Soviet period, as Dr. Mark talked 
about so eloquently. Many of these groups have been around--despite 
being labeled by the governments as new groups or new Christians--many 
of them have been around since before the Soviet period. They endured 
repression under the Russian Czarist regime; they endured serious 
repression under the Soviet era when there was liberalization, finally, 
for the Russian Orthodox. They have still continued to endure 
repression.
    So there is this sense of distrust of each other, not knowing who 
might be an informer, and that has undercut opportunities to work 
across different church lines. Together with that, there is a distrust 
of foreign groups or churches that have foreign and missionary ties 
internationally. So local groups have a sense of skepticism about the 
commitment of many internationally based or foreign religious groups 
and missionaries that have come into the countries in recent years. I 
think this culture of distrust hasn't broken down yet.
    They also differ in their ideas about strategies, how to deal with 
the current situation. Many of those that have been in the region the 
longest and endured the Soviet repression would prefer to sort of stay 
underground, continue to hide, continue to worship in their house 
churches, whereas some of the newer groups--or some of the groups that 
have more international connections--have moved more towards these 
open, charitable opportunities and working with local-level 
governments. I do think that greater opportunity for collaboration and 
discussion of these strategies--which is something that the Under 
Caesar's Sword project hopes to facilitate--would help them to realize 
that, by adopting some of the more successful strategies, such as 
engaging with local government and collaborating on social work, is 
something that might advance their cause and their religious freedom 
over the longer term.
    I think those are probably some of the major reasons. The last 
thing I would note is that the governments in the region, as well as 
civil society actors in general, have undercut some of these efforts. 
Civil society, surprisingly, perhaps, because it is so deeply secular 
across much of the Central Asian, former Soviet regions, they tend to 
distrust religious actors. There is not a tradition of secular civil 
society working with religious actors and considering them also part of 
the religious and part of the civic sphere. Then the government, I 
think, to some extent, plays the same role with religious organizations 
that it does with political opposition, attempting to plant distrust 
and fear within that community to undercut any sort of collaborative 
efforts.
    Thank you.
    Mr. Hurd. Thank you. General Counsel Brumley?
    Mr. Brumley. Thank you. Your first question had to do with, why is 
Russia proceeding the way it has and taking so long in its relentless 
pursuit or attack on Jehovah's Witnesses? Essentially, to give a veneer 
of giving Jehovah's Witnesses due process of law. That would be my 
answer. The concept is, we were registered--again, we gained legal 
status in 1992. Almost immediately, the General Prosecutor Office in 
Moscow began proceedings against the Moscow congregation. They 
instituted five different cases; they lost all five. The sixth one they 
won; that went all the way up to the Supreme Court in Russia. We 
appealed to the European Court of Human Rights. In 2010, the European 
Court handed down its decision, Jehovah's Witnesses of Moscow and 
Others v. Russia. It's a wonderfully written decision. It meticulously 
goes through the beliefs of Jehovah's Witnesses and whether any of 
these beliefs or practices pose any threat to the Russian people. The 
decision categorically rebuts every single argument raised.
    Now, an objective reader of that recent decision would have said, 
OK, case closed. Jehovah's Witnesses are no threat, we can leave them 
alone. But even before the decision was handed down, Russia had already 
amended its laws, such as the law on counteracting religious extremism, 
essentially, to look for a new way of attacking Jehovah's Witnesses. If 
plan A didn't work, then we'll go to plan B. So it was illuminating 
earlier this year, in April, at the hearing before the Supreme Court, 
as the lawyers for Jehovah's Witnesses would raise procedural 
objections that were very cogently raised, the prosecutor would stand 
up and literally say two or three sentences, and the judge would look 
at the prosecutor, look at the lawyers for the Witnesses, saying, 
having heard from the defendants and having heard from the general 
prosecutor, I concur with the general prosecutor.
    To give you two quick examples: In one motion, the attorneys 
representing Jehovah's Witnesses said, you are threatening to 
criminalize 395 local religious organizations. They have a right to be 
here in court if you're going to criminalize them. And the prosecutor 
stood up and said, they all make the same arguments, so when we hear 
from one or two, we've heard from all of them. And the judge says, yes, 
you're right, and so they don't need to be here. With the second 
motion--or a different motion that was raised was, as local religious 
organizations were being criminalized, the administrative center 
affirmatively sought to intervene in the case. The judges in each case 
said no, you're not a defendant; you're not concerned or a party to 
this. The administrative center then said, why should evidence adduced 
at those hearings now be introduced against us, when we did not even 
have the opportunity to defend ourselves? And again, the judge listened 
to the prosecutor say, essentially, two or three sentences, and 
overruled the motion.
    So, Mr. Hurd, there is an effort to create a veneer of due process 
of law that Jehovah's Witnesses have had their day in court, where 
really, the determination is a foregone conclusion. Essentially, we're 
thinking, as well, that Russia is hoping that no one will notice. So 
the fact that the international community was present at trial and at 
the Supreme Court, and the fact that human rights organizations are 
talking about this, is helpful. It shows that what Russia is doing is 
not going to happen unnoticed.
    Your second question is quite interesting as well, Mr. Hurd, about 
how this isn't the first time. It's interesting, in this decision of 
2010--from the European Court--it brought out that Jehovah's Witnesses 
have been present in Russia since 1891. We were banned under communism, 
under the Soviet regime, gained our legal status again in 1992. So 
we're not an unknown community within Russia. In fact, many Russians 
are fourth-, 
fifth-, even sixth-generation Jehovah's Witnesses. What did we do when 
we were under ban during the Soviet era? It's the same principles we 
apply now and that we've applied where this situation, unfortunately, 
presents itself anywhere in the world.
    In Apostle Paul's first letter to Timothy, he said something that 
we follow, that we pray--concerning kings and all those in high 
positions--that we may go on leading a calm and quiet life with 
complete Godly devotion and seriousness. The point there is that 
Jehovah's Witnesses just seek to worship in peace. As Mr. Bielefeldt 
said, we are the most peaceful people in the world in that we are 
doctrinally opposed to violence. So, the farthest thing from extremism. 
Our effort is to peacefully worship, but then, when a government says, 
no, you can't peacefully worship, then we go back to what the apostles 
said: We must obey God as ruler rather than men.
    So regardless of whatever steps Russia takes, Jehovah's Witnesses 
are not going to disappear. We will continue worshiping and continue 
doing what we have done. History bears out that we actually grow when 
persecuted, sometimes faster than where we have legal status. So the 
efforts by the government to dissuade us from worshiping aren't going 
to stop us from doing so, as that's what history bears out.
    Mr. Hurd. Thank you.
    I'm wondering if we have any questions from the audience. Yes, 
Cathy, and if you wouldn't mind using the microphone, please.
    Questioner. Thank you, Nate, for organizing this really great and 
informative hearing. I wanted to call quick attention to two aspects 
which haven't been discussed--well, they have been discussed, but I'd 
like to raise some new aspects. One is, the new minister in Kazakhstan 
of religion and civil society, I was recently told, is a 25-year 
veteran of the Kazakh state security services. Some of you obviously 
know this, but I just think it's worth highlighting publicly.
    Also, in Uzbekistan, I was told that the government is taking steps 
to assess the degree to which various religious prisoners--I suppose 
mainly Muslim--have been, in fact, radicalized in prison. However, this 
is a highly corrupt process. In addition, of course, to the very 
dubious criteria I assume they will be using. So perhaps it would be 
useful to call on the Uzbek Government to follow international good 
principles that have been followed in other countries.
    Finally, also, on corruption, I have been told by a Kyrgyz lawyer 
that there's widespread corruption in southern Kyrgyzstan, especially 
vis-a-vis the large Uzbek minority--that if Uzbeks want to avoid being 
arrested on arbitrary charges of being religious extremists, you have 
to pay bribes. There are some 200 people--this is as of several years 
ago--who were too poor to pay bribes, and hence, they're in prison.
    Thanks.
    Mr. Hurd. Cathy Cosman was a long-time staffer as USCIRF, and one 
of the world's leading experts on religious freedom, in particular in 
Central Asia and Russia, as you can tell from the granularity of her 
question, but thank you. Any of the panelists should feel free to 
answer.
    Dr. Collins. Yes, thank you for pointing that out. That's also the 
information that I have about the director of the new ministry. Again, 
hearkening back to Soviet-era policies, creating a ministry, which, 
allegedly, is about religion and civil society, in fact appears, by all 
accounts, starting with his leadership, to be actually about monitoring 
religion and undercutting its independence. So yes, I would agree with 
that.
    On the other point about the role of corruption, it's interesting, 
because I think it cuts both ways. On the one hand, in Kyrgyzstan, the 
prevalence of corruption in the police force is something that in part, 
I think, accounts for the fact that there are fewer religious prisoners 
in Kyrgyzstan over the past few years, because people tend to bribe 
their way out. Rather than being readily imprisoned, they can bribe the 
police to pay lower fines or to avoid being imprisoned. But as you 
point out, that of course means that those who can't afford to pay the 
bribes are the ones who do, in fact, end up in prison on various 
charges.
    Dr. Mark. I apologize. I have a plane to catch; I'm already cutting 
it pretty close. I didn't even get to plug our annual report yet, but 
I've got to excuse myself. But thank you, everyone, for being here, and 
I know you'll continue to learn a lot from the others.
    Mr. Hurd. Are there any other questions from the audience? Do we 
have any questions from our viewers on Facebook? No. Well, again, I'm 
grateful to all of you who are here in person, to those of you that are 
watching online, for being here on a wintry day, and in particular, to 
our panelists for, I think, what was a very rich, important and 
engaging discussion. I hope you'll join me in thanking our panelists.
    Actually, before we do that, I do want to thank both the chairmen 
of the Helsinki Commission, Senator Wicker, and Co-Chairman Smith, for 
their support for this briefing and religious freedom more broadly, as 
well as to my colleagues Stacy, Jordan, and Olivia, who were 
instrumental in organizing this.
    Please join me in thanking the panelists. [Applause.]
    [Whereupon, at 3:59 p.m., the briefing ended.]









                                  A P P E N D I X

    =======================================================================


                   PREPARED STATEMENT OF PHILIP BRUMLEY

    I thank the U.S. Helsinki Commission, Chairman Wicker, Co-Chairman 
Smith and Nathaniel Hurd for hosting this hearing and for allowing me 
to brief you on the situation of Jehovah's Witnesses in the OSCE 
region.
    There are over 8\1/2\ million Jehovah's Witnesses worldwide, with 
over 3 million in the OSCE region, including the United States.
    We enjoy national registration and are free to practice our faith 
in 51 of the 57 participating States of the OSCE. The exceptions 
include Tajikistan, Turkmenistan, Uzbekistan, and, since April, the 
Russian Federation.
    When domestic courts fail to protect our fundamental rights, we 
seek relief from international tribunals.
    Since 1993 we have obtained 64 favorable rulings from the European 
Court of Human Rights and 11 favorable decisions from the UN Human 
Rights Committee. But, the main challenge we are facing is, by far, 
Russia's state-sponsored persecution.

Russia:

I. In 2006 the Russian government amended its Law on Counteracting 
Extremist Activity. It removed incitement to violence as a component of 
what constitutes ``extremism.''

 A. The UN Human Rights Committee, PACE, and the Venice Commission have 
    all strongly criticized the amended law because it gives the 
    Russian government carte blanch to prosecute anyone it deems to be 
    but of step with its version of what is acceptable.

II. Based on this law, as amended, the authorities concocted a three-
step process to categorize Jehovah's Witnesses as extremists and to 
strip us of our fundamental freedoms of speech, press, and religion.

  A. First, the government criminalized our religious literature through 
     bogus ``expert studies'' and baseless court decisions. They even 
     banned our web site, jw.org.

  B. Second, it criminalized local congregations who had been using this 
     literature before it was declared extremist.

  <bullet>  The authorities went so far as to plant the banned literature 
            in our places of worship so that they could later ``discover'' 
            it and bring charges.

  C. Third, it criminalized the religious activity carried on at our 
     national offices and in our local places of worship.

  D. Since the amended law on extremism was enacted, Jehovah's Witnesses 
     have been subjected to:

    <bullet>  searches of their homes and places of worship,
    <bullet>  loss of employment,
    <bullet>  having their bank accounts frozen,
    <bullet>  mistreatment of their children by school authorities,
    <bullet>  detentions, secret video surveillance of their homes,
    <bullet>  monitoring of their mail, and
    <bullet>  intimidation to abandon their faith.

III. This decade long campaign culminated with the April 20, 2017, 
Supreme Court decision.

A. The Court ruled that the Administrative Center and all of the 395 
                    local legal entities are guilty of carrying on 
                    extremist activity, that their properties should be 
                    confiscated and that their activity terminated.

B. Due to the risk of criminal prosecution, we have ceased using our 
                    places of worship, and our national offices--worth 
                    millions of dollars.

C. Our branch offices in Europe, Canada and here in the United States 
                    inform us that there is an escalation in the number 
                    of Witnesses from Russia seeking asylum.

IV. We are tracking 3 developments with particular interest:

1. The criminal prosecution of Dennis Christensen, a citizen of 
                    Denmark, who if convicted faces up to 10 years 
                    imprisonment.

    <bullet>  Mr. Christensen has been denied bail and held in pre-
trial detention since May.
    <bullet>  His offense? Worshipping along with a local congregation.

2. The legal proceedings by the government to take possession of our 
                    National Offices, in complete disregard for the 
                    fact that these offices are owned by the Watch 
                    Tower Bible and Tract Society of Pennsylvania.

3. Whether an appellate court will confirm the decision of a lower 
                    court to declare our Bible the New World 
                    Translation of the Holy Scriptures to be extremist.

V. These relentless and coordinated efforts confirm that Russia is bent 
on, at a minimum, driving Jehovah's Witnesses underground. That said, 
as we speak, Jehovah's Witnesses are not being arrested en masse.

VI. The government seems to be taking the position that someone can be 
one of Jehovah's Witnesses--in private. But anyone who in the least way 
engages in any activity related to our worship risks criminal 
prosecution.

    <bullet>  In other words, ``You can be one of Jehovah's Witnesses, 
but
    <bullet>  Don't associate with other Jehovah's Witnesses,
    <bullet>  Don't read your Bible or any of your literature,
    <bullet>  Don't gather for worship with others of like faith, and
    <bullet>  Don't talk to anyone about your faith.''

VII. We thank the many governments and their agencies, such as the US 
Helsinki Commission, for your diplomatic efforts and statements.

A. The strong presence of the diplomatic community during the Supreme 
                    Court hearings sent a clear message that the 
                    international community is also well aware of 
                    Russia's persecution of Jehovah's Witnesses.

B. They realize that these proceedings are nothing more than a thinly 
                    disguised effort to legitimize the government's 
                    goal of stripping us of our fundamental right to 
                    worship.

Central Asia:

I. Beyond Russia, we are contending with systemic violations of our 
rights in Central Asiaand Azerbaijan.

II. The governments of Kazakhstan and Kyrgyzstan are considering 
amending their religion laws. If adopted, we could lose our right to 
worship in these lands.

Kazakhstan:

I. In Kazakhstan, we seem to be caught between opposing elements of the 
government; one that leans toward applying the rule of law, and the 
other that leans toward imitating Russia's methods of suppressing 
religious minorities.

II. In May, Teymur Akhmedov, a 61-year-old Witness in poor health, was 
sentenced to five years in prison under the charge of ``inciting 
religious discord.''

    <bullet>  In reality, he was merely sharing his religious beliefs 
with others.
    <bullet>  The UN Working Group on Arbitrary Detention condemned 
Kazakhstan for imprisoning Mr. Akhmedov and called for his immediate 
release.
    <bullet>  Sadly, the government has yet to comply.

Tajikistan:

I. The Ministry of Culture in Tajikistan banned our worship in 2007.

Uzbekistan:

I. Uzbekistan is the second worst offender of our fundamental rights in 
the OSCE region.

II. Just since September of 2016, there were:

    <bullet>  185 police raids on religious meetings and searches of 
private homes,
    <bullet>  153 convictions for religious activity,
    <bullet>  148 fines-up to 100 times the monthly minimum wage,
    <bullet>  7 Witnesses were jailed for religious activity, and there 
were 15 severe beatings of men and assaults on women by police.

III. Witnesses are fined even for having a copy of the Bible in their 
home.

IV. The authorities continue to deny legal registration to all 
congregations of Jehovah's Witnesses, except for one in Chirchik.

Turkmenistan:

I. We face similar issues in Turkmenistan. Bahram Hemdemov, a 52-year-
old Witness, began serving a four-year sentence in March 2015 just for 
worshiping with fellow Witnesses in his home.

Azerbaijan:

I. Although there are some small improvements in Azerbaijan, we have 18 
applications pending with the ECHR and 11 complaints filed with the 
CCPR.

Conclusion:

    We are gravely concerned about the welfare of our community in 
Russia.
    I would like to submit for the record my statement and also a video 
featuring Mr. Hiener Bielefeldt, the former UN Special Rapportuer on 
Freedom of Religion or Belief, who recently gave an insightful 
commentary on religious freedom in Russia. If anyone else here is 
interested in the video, we would be pleased to provide a link after 
the briefing.
    Thank you once again for the privilege of addressing you on the 
issues Jehovah's Witnesses are contending with in the OSCE region.

                                * * *

The following links are to the videos.

https://www.jw.org/en/news/legal/by-region/russia/heiner-bielefeldt-
interview/

https://www.jw.org/en/news/legal/by-region/russia/russian-authorities-
fabricate-evidence-video/
 




                           [all]
                           
                           
                           
                           
                           

  

        This is an official publication of the Commission on 
                 Security and Cooperation in Europe.

       
                                       * * *

       
       
                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                                        * * *

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                                        * * *

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
